  DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General


     Evaluation of DHS’ Information Security 

          Program for Fiscal Year 2006 





       Office of Information Technology

OIG-06-62                       September 2006
Table of Contents/Abbreviations 


  Executive Summary ....................................................................................................................... 1 


  Background .................................................................................................................................... 3 


  Results of Independent Evaluation ................................................................................................ 7 


  Recommendations........................................................................................................................ 15 


  Management Comments and OIG Analysis ................................................................................ 16 


Appendices
  Appendix A:                Purpose, Scope, and Methodology.................................................................. 18 

  Appendix B:                Management Response to Draft Report ......................................................... 20 

  Appendix C:                Digital Dashboard Example............................................................................ 24 

  Appendix D:                IT Security Scorecard and C&A Remediation Progress Report .................... 26 

  Appendix E:                System Inventory and IT Security Performance............................................. 27 

  Appendix F:                OIG Assessment of the Plan of Action and Milestones Process .................... 30 

  Appendix G:                OIG Assessment of the Certification and Accreditation Process ................... 31 

  Appendix H:                Agencywide Security Configuration Requirements ....................................... 32 

  Appendix I:                Incident Detection and Handling Procedures ................................................. 33 

  Appendix J:                Security Training Procedures.......................................................................... 34 

  Appendix K:                Major Contributors to this Report................................................................... 35 

  Appendix L:                Report Distribution ......................................................................................... 36 


Abbreviations
  ATO                        Authority to Operate    

  C&A                        Certification and Accreditation   

  CBP                        United States Customs and Border Protection 

  CIO                        Chief Information Officer 

  CIS                        United States Citizenship and Immigration Services 

  CISO                       Chief Information Security Officer   

  CONOPS                     Concept of Operations     

  CSIRC                      Computer Security Incident Response Center      

  DHS                        Department of Homeland Security     

  FEMA                       Federal Emergency Management Agency         

  FIPS                       Federal Information Processing Standard    

  FISMA                      Federal Information Security Management Act       

  FLETC                      Federal Law Enforcement Training Center       

  FY                         Fiscal Year 

  ICE                        United States Immigration and Customs Enforcement 


                             Evaluation of DHS’ Information Security Program for FY 2006
Table of Contents/Abbreviations 

  ISSM           Information Systems Security Manager
  ISSO           Information Systems Security Officer
  IT             Information Technology
  NIST           National Institute of Standards and Technology
  NOC            Network Operations Center
  OIG            Office of Inspector General
  OMB            Office of Management and Budget
  POA&M          Plan of Action and Milestones
  Preparedness   Directorate for Preparedness
  RFID           Radio Frequency Identification
  RMS            Risk Management System
  SBU            Sensitive But Unclassified
  S&T            Science and Technology
  SOC            Security Operations Center
  SP             Special Publication
  TSA            Transportation Security Administration
  TWIC           Transportation Worker Identification Credential
  US-CERT        United States Computer Emergency Readiness Team
  USCG           United States Coast Guard
  USSS           United States Secret Service
  US-VISIT       United States Visitor and Immigrant Status Indicator Technology




                 Evaluation of DHS’ Information Security Program for FY 2006
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                           We conducted an independent evaluation of the Department of Homeland
                           Security’s (DHS) information security program and practices to comply
                           with the Office of Management and Budget’s (OMB) Federal Information
                           Security Management Act (FISMA) of 2002 reporting requirements.1 We
                           evaluated DHS’ progress in implementing its agencywide information
                           security program. In doing so, we specifically assessed DHS’ Plan of
                           Action and Milestones (POA&M) as well as its certification and
                           accreditation (C&A) processes. We performed our work at both the
                           program and the component levels.

                           In response to a United States House of Representatives, Committee on
                           Appropriations report, DHS implemented a department-wide remediation
                           plan to certify and accredit all operational systems by the end of Fiscal
                           Year (FY) 2006.2 The completion of this plan will eliminate a major
                           factor that held the Department back from strengthening its security
                           program in prior years.

                           In addition, some of the issues that we identified and recommendations
                           made in our FY 2005 report, to assist DHS and its components in the
                           implementation of its information program, have been addressed. Some of
                           the measures taken include developing a process to maintain a
                           comprehensive inventory and increasing the number of operational
                           systems that have been certified and accredited.

                           Despite several improvements in DHS’ information security program in
                           the past year, DHS components, through their Information Systems
                           Security Managers (ISSM), have not completely aligned their respective
                           information security programs with DHS’ overall policies, procedures, and
                           practices. For example:

                           • 	 All DHS systems have not been properly certified and accredited.
                           • 	 All components’ information security weaknesses are not included in a
                                POA&M.
                           • 	 Data in the enterprise management tool, Trusted Agent FISMA, is not
                                complete or current.

1
    FISMA is included under Title III of the E-Government Act (Public Law 107-347).
2
    House Report 109-079 – Department of Homeland Security Appropriations Bill, 2006.

                             Evaluation of DHS’ Information Security Program for FY 2006 


                                                       Page 1 

•     System contingency plans have not been tested for all systems.

While DHS has issued substantial guidance designed to create and
maintain secure systems, we identified areas where the implementation of
agencywide information security procedures require strengthening: (1)
certification and accreditation; (2) plan of action and milestones; (3)
security configurations; (4) vulnerability testing and remediation; (5)
contingency plan testing; (6) incident detection, analysis, and reporting;
and (7) specialized security training.

In response to our draft report, DHS concurred with our recommendations
and is in the process of implementing corrective measures. DHS’
response is summarized and evaluated in the body of this report and
included, in its entirety, as Appendix B.




    Evaluation of DHS’ Information Security Program for FY 2006 


                              Page 2 

Background
                            Due to the increasing threat to information systems and the highly
                            networked nature of the federal computing environment, Congress, in
                            conjunction with OMB, requires an annual review and reporting of
                            agencies’ compliance with FISMA. FISMA focuses on the program
                            management, implementation, and evaluation of the security of
                            unclassified and national security systems.3

                            The E-Government Act of 2002 (Public Law 107-347) recognized the
                            importance of information security to the economic and national security
                            interests of the United States.4 Title III of the E-Government Act, entitled
                            FISMA, provides a comprehensive framework to ensure the effectiveness
                            of security controls over information resources that support federal
                            operations and assets.

                            FISMA requires each federal agency to develop, document, and
                            implement an agencywide security program. The agency’s security
                            program should protect the information and the information systems that
                            support the operations and assets of the agency, including those provided
                            or managed by another agency, contractor, or other source. As specified
                            in FISMA, agency heads are charged with conducting an annual
                            evaluation of information programs and systems under their purview, as
                            well as assessments of related security policies and procedures. Offices of
                            Inspector General (OIG) must independently evaluate the effectiveness of
                            an agency’s information security program and practices on an annual
                            basis.

                            OMB issued memorandum M-06-20, FY 2006 Reporting Instructions for
                            the Federal Information Security Management Act and Agency Privacy
                            Management, on July 17, 2006. The memorandum provides updated
                            instructions for agency and OIG reporting under FISMA. This annual
                            evaluation summarizes, according to OMB’s instructions, the results of
                            our review of DHS’ information security program and practices.

3
  The term “national security system” means any information system, including any telecommunications system,
   used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency:
  (i) 	 The function, operation, or use of which involves intelligence activities; involves cryptographic activities 

         related to national security; involves command and control of military forces; involves equipment that is an

         integral part of a weapon or weapons system; or is critical to the direct fulfillment of military intelligence 

         missions (excluding a system that is to be used for routine administrative and business applications, i.e.,

         payroll, finance, logistics, and personnel management applications), or 

  (ii) is protected at all times by procedures established for information that have been specifically authorized under
        criteria established by an Executive Order or an Act of Congress to be kept classified in the interest of national
        defense or foreign policy.
4
  Information security means protecting information and information systems from unauthorized access, use,
disclosure, disruption, modification, or destruction.

                              Evaluation of DHS’ Information Security Program for FY 2006 


                                                          Page 3 

                             The Chief Information Security Officer (CISO) revised the baseline
                             information technology (IT) security policies and procedures in the DHS
                             Sensitive Systems Policy Directive 4300A and its companion, DHS 4300B
                             Sensitive Systems Handbook, and DHS National Security Systems Policy
                             Directive 4300B and its companion, DHS 4300B National Security
                             Systems Handbook,5 to include updated policy on certification and
                             accreditation, wireless communication, and configuration management.
                             Other changes included guidance for tailoring National Institute of
                             Standards and Technology (NIST) Special Publication (SP) 800-53
                             controls based on the impact level established for each security objective
                             (confidentiality, integrity, availability) and mandating that the components
                             implement NIST SP 800-53 controls for all operational systems by
                             March 2007. Additionally, DHS issued the DHS Certification and
                             Accreditation Guidance for Sensitive But Unclassified (SBU) Systems
                             User’s Manual,6 which provides the components with the necessary
                             guidance and procedures to complete the C&A for SBU systems.
                             Together, these policies and procedures - if fully implemented by the
                             components - should provide DHS with an effective information security
                             program that complies with FISMA requirements.

                             DHS has developed a process for reporting and capturing known security
                             weaknesses in POA&Ms. DHS uses an enterprise management tool,
                             Trusted Agent FISMA, to collect and track data related to all POA&M
                             activities, including self-assessments, and certification and accreditation
                             data. Trusted Agent FISMA also collects data on other FISMA metrics,
                             such as the number of systems that have contingency plans, systems with
                             contingency plans tested, systems certified and accredited, employees who
                             have received IT security training, and incident response statistics. See
                             Figure 1 for DHS’ POA&M process.




5
    The latest versions are dated June 1, 2006.
6
    Dated May 5, 2006.

                               Evaluation of DHS’ Information Security Program for FY 2006 


                                                         Page 4 

                                              Figure 1: DHS’ POA&M Process

                                                                              An IT Security Weakness,
                                                                                Material Weakness, or
                                                                               Significant Deficiency is
                                                           Weakness              identified, at either a
                                                           Identified         program or a system level.                                                             ISSMs review, on a
                                                                                                                                                              ISSM   quarterly basis, for
                                                                                                                                                                     consistency and accuracy
                                                                                                                                                                     within their OE
                                                                                                                                        Quarterly
                                                                                                                                     Reporting/Review                CISO submits quarterly
                                                                                                                                                                     reports to OMB and
                                                                                                                                                                     Congress
                                  ISSOs ensure POA&M       Document
                                  are entered into         Weakness
                                  Trusted Agent FISMA.                                   Trusted FISMA Agent                             Annual
                                                                                                                                     Reporting/Review
                                                                             The OE's use the DHS Enterprise -wide tool,
                                                                          Trusted Agent FISMA, for identifying and tracking
                                                                                       all POA&Ms to closure.
   The DHS CISO ensures that the agency's
                                                                          For Sensitive Systems - The OE's document and
         POA&M process represents a
       prioritization of agency IT security                                manage POA&M's using Trusted Agent FI SMA.
      weaknesses which ensures that IT                                    For Classified, Intelligence, and National Security
                                                           Prioritize    Systems - The OE's maintain redacted POA&M data
    security weaknesses are addressed in a
                                                                              within Trusted Agent FISMA for enterprise
       timely manner and receive, where
       necessary, appropriate resources                                     management and oversight. Detailed POA&M
                                                                           documentation is maintained off -line and made
                                                                                      readily available to auditors.



                                                                                  ISSOs
                                                            POA&M                 develop, track
                                                         Developed and            and manage
                                                          Documented              POA&Ms for
                                                                                  systems                           ISSMs ensure the use of Trusted Agent
                                                                                  under their                       FISMA to develop, track, and manage the
                                                                                  control.                 ISSM     remediation of IT system and program
                                                                                                                    weaknesses within their OE



                                                             Take
                                                           Corrective
                                                            Action

                                                                           Repeat until all of the
                                                                           milestones have been
                                                                           completed for each
                                                                           weakness.
                   Independent review conducted
                   by Compliance and Oversight               Track
                   Program within the Office of the       Corrective
                   CISO                                   Action(s) to
                                                          Completion


                                                                          Complete Monthly
                                                                          Updates within Trusted
                                                           Monthly        Agent FISMA
                                                          Reviews of
                                                          weaknesses
                                                         and milestone
                                                             data                 ISSOs ensure POA&M are
                                                                                  current as documented in
                                                                                  Trusted Agent FISMA


Source: DHS 4300A Sensitive Systems Handbook – Attachment H - POA&M Process Guide


                                              DHS also uses an enterprise C&A tool, Risk Management System (RMS),
                                              to automate and standardize portions of the C&A process to assist the
                                              DHS components to quickly and efficiently develop security accreditation
                                              packages. See Figure 2 for an illustration on how the enterprise
                                              management and C&A tools are used within the Department to collect,
                                              manage, and report information security metrics.




                                                Evaluation of DHS’ Information Security Program for FY 2006 


                                                                                       Page 5 

                            Figure 2: DHS’ Enterprise Security Management Tools Usage

                                  DHS 4300                                        C&A Tool                                        Data Review Teams

                             FISMA Requirements                          System Security Plan (SSP)                                     DHS
                                                                                                                                     Compliance
                             OMB/NIST Guidance                      Requirements Traceability Matrix (RTM)                             Review
                                                                                                                                       Teams
                                                                      Security Assessment Report (SAR)
                              Other Requirements
                                                                           Sample Test Procedures
                                       Component IT Security                                                                            OIG
                                       Program Implementation                    Test Results

                                                                              Contingency Plans               Data Verification
                                                  IT System                                                       and Review
                                             Implementations                                                                         Component/
                                                                                                                                      Domain
                                                                                       Future Link                                     ISSM
                                   DHS
                                Component/
                                                                         FISMA Reporting Tool
                                  Domain

                                                                     System and Program Security Metrics
                                                 Monthly Status
                                                 Updates            Plan of Action and Milestones (POA&M)
                                                                                                             FISMA Reports              OMB
                                                                      Annual Assessment Questionnaire

                                                                        Summary of C&A Status/Docs

                                                                                   Reports

                                                                              Digital Dashboard               Metrics
                                                                                                                                       DHS
                                                                                                              Digital Dashboard     Management



                            Source: DHS 4300A Sensitive Systems Handbook, Attachment E – FISMA Reporting



                            DHS developed the FY 2006 DHS Information Security Certification and
                            Accreditation (C&A) Remediation Plan to meet the Department’s goal of
                            100 percent C&A of all IT systems by September 30, 2006. The objective
                            of the plan is to provide agencywide information security procedures to
                            report on the progress of the C&A efforts within the Department. To
                            manage the components’ compliance with the C&A remediation plan, the
                            CISO developed a “digital dashboard,” which uses red, yellow, and green
                            indicators to reflect the status of each component’s percentage of
                            compliance.7 The information used to develop the digital dashboard
                            comes from data in Trusted Agent FISMA. See Appendix C for an
                            example of the digital dashboard. A Department-wide IT Security
                            Scorecard and C&A Remediation Progress Report was also developed to
                            track the progress of the components and the Department in meeting its
                            goal. See Appendix D for the July 2006 report.




7
  These metrics include the average C&A remediation scores of all inventory systems for each component.
Remediation scoring concerns validated artifacts that are weighted according to their importance. Documents
include a valid authority to operate letter, risk assessment, system security plan, security test and evaluation plan,
security assessment report, contingency plan, contingency plan test results, FIPS 199 security categorization
determination, e-authentication, privacy threshold analysis, and security self-assessment.

                             Evaluation of DHS’ Information Security Program for FY 2006 


                                                                  Page 6 

Results of Independent Evaluation
We separated the results of our evaluation into six FISMA reporting areas. For each area, we
identified progress that DHS has made since our FY 2005 evaluation and issues that need to be
addressed to be successful in the FISMA area.

              System Inventory and IT Security Performance

                      DHS has established procedures to adequately maintain its system
                      inventory and has also issued updated guidance to the components
                      regarding many aspects of its IT security program including C&A and
                      contingency planning.

                      PROGRESS

                      • 	 DHS has a comprehensive inventory of its major applications and
                         general support systems, including contractor and national security
                         systems. DHS identified 692 operational systems (as of
                         September 15, 2006).
                      • 	 DHS has developed an effective process to update and maintain its
                         inventory on an annual basis for agency, contractors, and classified
                         systems.
                      • 	 DHS has performed self-assessments on 198 (96 percent) of its
                         contractor systems as of September 15, 2006.
                      • 	 DHS updated its Rules of Behavior in the DHS Handbook to include
                         the prohibition of peer-to-peer file sharing or software for the purpose
                         of sharing files.

                      ISSUES TO BE ADDRESSED

                      • 	 System contingency plans have not been tested for 301 (44 percent) of
                         systems as of September 15, 2006.
                      • 	 DHS cannot totally rely on all of the standard reports generated from
                         Trusted Agent FISMA. The Chief Information Officer (CIO) has to
                         validate some data (numbers of systems reviewed, number of systems
                         for which security controls have been tested and evaluated in the last
                         year) in the “System Inventory and IT Security Performance” report
                         before providing it to OMB.

                      See Appendix E for specific System Inventory and IT Security
                      Performance data.



                       Evaluation of DHS’ Information Security Program for FY 2006 


                                                 Page 7 

Plan of Action and Milestones Process

      Although DHS has issued guidance and implemented a tool to capture and
      track weaknesses, improvements continue to be needed in the
      components’ implementation of the POA&M process. The components
      are not including all IT security weaknesses in the tool nor is all of the
      data entered accurate and updated timely.

      PROGRESS

      • 	 DHS made numerous enhancements to Trusted Agent FISMA to make
          it a more useful tool to manage its security program. Enhancements
          included improved capability to prioritize POA&M weaknesses and
          additional management reports to validate the integrity of the
          information entered.
      • 	 DHS conducted component site visits and Trusted Agent FISMA
          training which included detailed reviews of the POA&M process, to
          ensure the quality and completeness of the component’s POA&M data.
          DHS conducts quarterly reviews and reports its findings to the DHS
          Compliance and Oversight Office and components.

      ISSUES TO BE ADDRESSED

      • 	 DHS’ components have not created POA&Ms for all known security
          weaknesses. As of June 8, 2006, 388 (55 percent) of the operational
          systems had a POA&M in Trusted Agent FISMA. DHS requires
          components to create at least one POA&M for every system. We
          reviewed 27 operational systems that had not been accredited and
          found 18 that did not have at least one POA&M (lack of a completed
          C&A).
      • 	 DHS relies on the component ISSMs and Information Systems
          Security Officers (ISSOs) to ensure that POA&M information is
          entered accurately and that weaknesses are resolved. Based on an
          analysis of data in Trusted Agent FISMA as of June 8, 2006, the
          ISSMs and ISSOs are not maintaining current information as to the
          progress of security weakness remediation. The Office of the CISO
          cannot effectively manage its security program without key
          information being maintained accurately.
                   Component
                    	          management was not updating all weaknesses
                   when the estimated completion date had been delayed. Four
                   hundred and seventy-seven (477) of the 3,566 open POA&Ms
                   (13 percent) had estimated completion dates that were at least 3
                   months past due (prior to March 8, 2006), including 37 that had
                   an estimated completion date over 1 year old.

        Evaluation of DHS’ Information Security Program for FY 2006 


                                  Page 8 

                   Twenty-eight
                    	            open POA&Ms, which included 18 POA&Ms
                   designated as high or medium criticality, did not have an
                   estimated completion date entered in the system.
                   Two
                    	    thousand four hundred and sixty-two (2,462) of the 3,566
                   open POA&Ms (69 percent) did not include the resources
                   required for remediation. For the remaining 1,104 POA&Ms
                   that included required resources, 438 (40 percent) listed the
                   cost of remediation as 1 dollar. The total estimated cost of
                   remediation for the 1,104 POA&Ms is approximately
                   $90.2 million. Because this amount represents less than one
                   third of all open POA&Ms, the actual cost to remediate all
                   weaknesses cannot be accurately budgeted by the components
                   or the Department.
      • 	 Not all POA&Ms are being resolved in a timely manner. As of
          June 8, 2006, 182 of 3,566 open POA&Ms (5 percent), which included
          91 designated as high criticality, reported estimated completion dates
          that were more than 2 years after the identification of the weakness.
      • 	 Some missing or incomplete data identified during DHS’ quarterly
          reviews of the components POA&Ms have not been corrected.
          Examples that were identified included systems with an authority to
          operate (ATO) but no POA&Ms and weaknesses without resources or
          milestones. Many of the systems with incomplete or missing data
          identified during the March 2006 review were also identified during
          the June 2006 review.
      • 	 The CISO has not begun to use POA&M priority levels to ensure the
          timely resolution of critical weaknesses.

      See Appendix F for the OIG Assessment of the POA&M Process.

Certification and Accreditation Process

      DHS requires components to use a department-wide tool that incorporates
      NIST security controls to conduct their C&As. In using this tool,
      components are required to apply NIST SP 800-53 security controls for all
      system certifications begun after June 1, 2006. However, for many of the
      systems reviewed, the artifacts that are required to support the C&A were
      either missing or incomplete.

      PROGRESS

      • 	 DHS issued Certification and Accreditation Guidance for SBU
          Systems to provide step-by-step instructions to the components to
          perform system C&A.

        Evaluation of DHS’ Information Security Program for FY 2006 


                                  Page 9 

                           • 	 DHS developed a C&A Remediation Plan designed to have
                                100 percent of its systems certified and accredited and contingency
                                plans tested in FY 2006.
                           • 	 DHS requires 11 C&A artifacts to be uploaded into Trusted Agent
                                FISMA to monitor components’ progress in meeting its C&A
                                remediation plan goal.8 In addition, the CISO established a process to
                                independently review and validate the artifacts in Trusted Agent
                                FISMA.
                           • 	 The CISO monitors components’ progress through monthly scorecard
                                reports. See Appendix D for the July 2006 report.
                           • 	 Components are required to apply NIST SP 800-53 security controls
                                for all system certifications begun after June 1, 2006.
                           • 	 DHS has updated RMS to incorporate NIST SP 800-53 and Federal
                                Information Processing Standard (FIPS) Publication 200 security
                                controls.
                           • 	 Beginning in February 2006, the DHS Privacy Office is responsible
                                for validating Privacy Threshold Assessments and Privacy Impact
                                Assessments for all systems.
                           • 	 As of August 14, 2006, 77 percent of DHS’ operational systems have
                                been certified and accredited and obtained an ATO. This is an
                                improvement over FY 2005 when 32 percent of the Department’s
                                systems had been certified and accredited.
                           • 	 Many ISSMs have formal and informal processes in place to review
                                C&A documentation for their systems.

                           ISSUES TO BE ADDRESSED

                           • 	 We selected 35 systems spanning 10 components (including 29
                                systems with current ATOs) to evaluate the quality of DHS’ C&A
                                process. In 27 instances, the accreditation packages were incomplete.
                                The C&A process requires documentation of system security plans,
                                risk assessments, system test and evaluation plans, security assessment
                                reports, contingency plans, and contingency plan test results.
                                Specifically, systems were accredited, although some security
                                documents were missing key information that is required to meet
                                applicable DHS, OMB, and NIST guidelines. Without this
                                information, agency officials cannot make credible risk-based
                                decisions on whether to authorize the system to operate. For example,
                                we identified the following:
8
 The 11 artifacts are: ATO letter, system security plan, security assessment report, risk assessment, security test and
evaluation, contingency plan, contingency plan test results, FIPS 199 determination, e-authentication determination,
privacy threshold analysis, and NIST 800-26.

                             Evaluation of DHS’ Information Security Program for FY 2006 


                                                       Page 10 

            Eleven
             	       instances where system security plans were incomplete
            as sections that describe operational and technical controls and
            incident handling procedures were missing;
            Twenty
             	        instances where the use of automated vulnerability
            assessment tools were not documented in the risk assessments;
            Nine
             	    instances where the alternate processing facilities were
            not identified in the contingency plans for systems that were
            categorized as high impact;
            Eight
             	     instances where the contingency plans were not tested or
            the results were not documented; and
            Fifteen
             	       instances where there were no documented test results
            from the system test and evaluation plan or the residual risks
            were not identified in the security assessment report.
• 	 We identified deficiencies in artifacts that had been validated by DHS.
   For example, systems with expired ATO or Interim ATO were
   validated by DHS and accepted as a current ATO. In addition, an
   e-authentication workbook was improperly validated as support for
   performing a FIPS-199 categorization. We also identified instances
   where the dates reported in Trusted Agent FISMA were not the same
   as the dates in the supporting artifacts.
• 	 Twenty-eight systems were accredited without at least one of three
   critical artifacts: risk assessment, system security plan, or security
   assessment report. Four of the 28 lacked all three of the required
   artifacts.
• 	 Six United States Citizenship and Immigration Services (CIS) systems
   in which one or more of the security objectives (confidentiality,
   integrity, availability) in the FIPS 199 worksheet did not match what
   was reported in the system security plan. The DHS CIO has not issued
   detailed guidance to the components on how to categorize systems
   based on the types of data being captured, processed, or maintained.
   Therefore, there is little assurance that the accreditations by the
   components were based on an accurate review of risks and controls
   needed.
• 	 Based on guidance provided by the CISO to the components, 80
   systems were accredited for 1 year or less (including 24 for 6 months
   or less). These systems should not be considered in calculating the
   number of systems that DHS has accredited.

See Appendix G for the OIG Assessment of the C&A Process.




 Evaluation of DHS’ Information Security Program for FY 2006 


                          Page 11 

Agencywide Security Configuration Requirements

      Although DHS has updated its baseline software security configuration
      guides, the components have not implemented all of the required software
      security configurations.

      PROGRESS

      • 	 DHS updated its agencywide security baseline configuration guides for
         Windows 2000/2003/XP, Solaris, HP-UX, Linux, Cisco Routers, and
         Oracle database servers in May 2006.
      • 	 An analysis of three baseline configuration guides (Windows, Oracle,
         and Cisco) disclosed that they provide a sufficient level of detail to
         adequately secure basic installations of these systems.

      ISSUES TO BE ADDRESSED

      • 	 Baseline configuration guides had not been developed for all software
         systems in use at DHS (for example, Windows NT, Windows Active
         Directory).
      • 	 DHS policy does not require that components use guidelines published
         by other agencies (such as NIST, National Security Agency, and
         Defense Information Systems Agency) for systems where DHS has not
         developed its own baseline configuration guides.
      • 	 Components have not fully implemented DHS baseline security
         configuration requirements for all of their systems. Our review of four
         systems at three components (Federal Emergency Management
         Agency (FEMA), United States Immigration and Customs
         Enforcement (ICE), and Directorate for Preparedness (Preparedness))
         disclosed that some DHS baseline configuration requirements were not
         implemented for their Windows and Oracle systems.
      • 	 The CIO does not have a process to determine whether components
         have implemented DHS baseline configuration requirements.
      • 	 Vulnerability assessments performed at components reviewed during
         our laptop, Radio Frequency Identification (RFID), and Transportation
         Worker Identification Credential (TWIC) audits identified security
         concerns resulting from inadequate password controls, patch
         management, and configuration management. Components included
         United States Customs and Border Protection (CBP), OIG, Science
         and Technology (S&T), Transportation Security Administration




       Evaluation of DHS’ Information Security Program for FY 2006 


                                Page 12 

                                (TSA), and United States Visitor and Immigrant Status Indicator
                                Technology (US-VISIT).9

                           See Appendix H for information regarding DHS’ Agencywide Security
                           Configuration Requirements.

                  Incident Detection, Handling, and Analysis Procedures

                           DHS has not improved its incident detection, handling, and analysis
                           procedures during the last year. DHS does not have a departmental
                           vulnerability assessment program to ensure that all systems are tested at
                           least yearly nor is there assurance that all security incidents are being
                           reported.

                           ISSUES TO BE ADDRESSED

                           • 	 DHS’ vulnerability assessment program has not been fully established.
                                Therefore, DHS does not have reliable measures or a baseline to assess
                                the results of its vulnerability scans or its penetration testing.
                           • 	 Some components are not reporting incidents to the DHS Computer
                                Security Incident Response Center (CSIRC), as required. Components
                                are required to submit weekly incident reports. Five components
                                (FEMA, Federal Law Enforcement Training Center (FLETC), OIG,
                                TSA, United States Secret Service (USSS)) did not submit reports
                                every week during a 12-week period that we reviewed.
                           • 	 DHS CSIRC does not follow-up with components that do not submit
                                weekly incident reports.
                           • 	 DHS does not have detailed procedures for reporting incidents
                                externally to law enforcement authorities. We also reported this issue
                                in our FY 2004 and FY 2005 FISMA reports.10
                           • 	 The DHS CSIRC does not have detailed procedures for reporting
                                incidents to the United States Computer Emergency Readiness Team
                                (US-CERT).
                           • 	 DHS has not defined detailed procedures for the DHS CSIRC to
                                perform department-wide security incident analysis. We reported a
                                similar issue in our FY 2005 FISMA report.

9
  CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security, dated May 2006 (OIG-06-36); Enhanced
Security Controls Needed for US-VISIT’s System Using RFID Technology, dated June 2006 (OIG-06-39); Improved
Administration Can Enhance Science and Technology Laptop Computer Security, dated June 2006 (OIG-06-42); TSA’s
Development of Its Weapons Management System Using RFID, dated July 2006 (OIG-06-44); DHS Must Address Significant
Security Vulnerabilities Prior to TWIC Implementation, dated July 2006 (OIG-06-47); Office of Inspector General Laptop
Computers Are Susceptible To Compromise, dated September 2006 (OIG-06-58).
10
   Evaluation of DHS’ Information Security Program for Fiscal Year 2004, dated September 2004 (OIG-04-41); Evaluation of
DHS’ Information Security Program for Fiscal Year 2005, dated September 2005 (OIG-05-46).

                             Evaluation of DHS’ Information Security Program for FY 2006 


                                                        Page 13 

      See Appendix I for information regarding DHS’ Incident Detection and
      Handling Procedures.

Security Training Procedures

      DHS has begun to validate employee training at the components. The
      Information Security Training, Education, and Awareness Office
      (Training Office) has not determined specific training that is needed for
      employees with significant security responsibilities.

      PROGRESS

      • 	 The Training Office started quarterly reviews in May 2006 to validate
         security awareness training statistics entered into Trusted Agent
         FISMA by each component.
      • 	 The Training Office reviews training materials used by the
         components.

      ISSUES TO BE ADDRESSED

      • 	 DHS (CIO and Office of Human Capital) has not implemented a
         department-wide web-based IT security training program (learning
         management system) to standardize security awareness training and to
         track the completion of security training. The learning management
         system was originally planned to be implemented in FY 2004; but it
         was pushed back to FY 2006. Currently, the plan is to launch the
         system by the end of August 2006 for DHS headquarters employees
         only. The system is expected to be fully functional (available to all
         components) by FY 2010.
      • 	 The Training Office has not established appropriate specialized
         security training that is needed for all employees and contractors with
         significant IT security responsibilities. While the Training Office
         ensures that ISSMs and ISSOs obtain specialized training, it relies on
         the components to ensure that other individuals with significant
         security responsibilities (including system administrators, database
         administrators, and network administrators, etc.) are properly trained.
         We reported a similar issue in our FY 2005 FISMA report.
      • 	 As of August 4, 2006, the Training Office had not begun to validate
         specialized security training for individuals with significant IT security
         responsibilities at each component.
      • 	 Some of the FY 2005 training plans (submitted by September 1, 2005)
         did not include all of the mandatory data elements required by the


       Evaluation of DHS’ Information Security Program for FY 2006 


                                Page 14 

               DHS Handbook. For example, training plans did not include the
               number of employees and contractors with network accounts, dates for
               security awareness training, the number of information systems
               security employees, and dates for specialized training. Because the
               FY 2006 plans are not due until September 1, 2006, we were unable to
               determine whether these plans are adequate.

            See Appendix J for information regarding DHS’ Security Training
            Procedures.

Recommendations
            We recommend that the DHS CIO:
            1. 	 Improve the CISO’s review process to ensure that all POA&Ms are
                 complete, accurate, and current. Deficiencies identified during the
                 reviews should be corrected timely.
            2. 	 Ensure the quality of all C&A documents (complete, accurate, and
                 properly validated) before a system is accredited by improving the
                 artifact validation process.
            3. 	 Implement a department-wide incident analysis process and
                 vulnerability assessment program (including baseline configuration
                 requirements verification).
            4. 	 Ensure that all incidents are reported to the DHS CSIRC. The DHS
                 CSIRC should follow-up with components that do not provide the
                 required reports.
            5. 	 Develop and implement documented procedures to identify, report,
                 and track incidents that should be forwarded to law enforcement
                 authorities and US-CERT (for example, type of incidents to report,
                 deadlines to report incidents, responsible agency and reporting
                 contacts, methods to report incidents).
            6. Establish appropriate training that is needed for all individuals with
               significant security responsibilities; ensure that these individuals
               complete the required training as part of the validation process
               performed by the Training Office.
            7. 	 Identify the Department’s information data types and their minimum
                 FIPS 199 categorizations to assist the components in determining the
                 necessary security controls needed for their data.
            8. 	 Ensure that configuration requirements are developed and published
                 for all major software systems used by DHS components.




             Evaluation of DHS’ Information Security Program for FY 2006 


                                      Page 15 

Management Comments and OIG Analysis
             DHS agreed with recommendation 1. DHS continues to improve the
             POA&M process and will increase its focus on POA&M quality and
             timeliness in FY 2007.

             We agree that the steps DHS plans to take satisfy this recommendation.

             DHS agreed with recommendation 2. DHS recently changed the
             personnel responsible for validating its C&A document to provide
             additional quality assurance safeguards. Continued quality improvements
             of its C&A documents will occur in FY 2007.

             We agree that the steps DHS has taken, and plans to take, satisfy this
             recommendation.

             DHS agreed with recommendation 3. DHS plans to improve its
             vulnerability management as part of its enterprise Network Operations
             Center/Security Operations Center (NOC/SOC) in FY 2007. A Concept
             of Operations (CONOPS) for the NOC/SOC, which will provide detailed
             guidance, is under development and will be completed by March 30, 2007.

             We agree that the steps DHS plans to take begin to satisfy this
             recommendation. However, DHS did not fully address our
             recommendation. We maintain that a department-wide incident analysis
             process and vulnerability program should be part of the NOC/SOC.

             DHS agreed with recommendation 4. DHS plans to improve its security
             incident analysis and reporting with the implementation of its enterprise
             NOC/SOC CONOPS in FY 2007.

             We agree that the steps DHS plans to take begin to satisfy this
             recommendation. However, DHS did not fully address our
             recommendation. We maintain that the DHS CSIRC should ensure that all
             incidents are reported.

             DHS agreed with recommendation 5. DHS plans to improve its security
             incident analysis and reporting with the implementation of its enterprise
             NOC/SOC and development of a CONOPS in FY 2007.

             We agree that the steps DHS plans to take satisfy this recommendation.

             DHS agreed with recommendation 6. The CISO provides specialized
             security training during its annual security conference and individuals
             receive role-based training on a case-by-case basis.

              Evaluation of DHS’ Information Security Program for FY 2006 


                                       Page 16 

We agree that the steps DHS plans to take begin to satisfy this
recommendation. However, DHS did not fully address our
recommendation. We maintain that DHS should establish appropriate
training for all individuals with significant security responsibilities and
ensure that these individuals complete the required training.

DHS agreed with recommendation 7. DHS will expand it process for
reviewing and possibly add additional information types in FY 2007.

We agree that the steps DHS plans to take satisfy this recommendation.

DHS agreed with recommendation 8. The Department recently issued a
configuration guide for Windows NT.

We agree that the steps DHS has taken satisfy this recommendation.




 Evaluation of DHS’ Information Security Program for FY 2006 


                          Page 17 

              Appendix A
              Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
              The objective of this review was to determine whether DHS has developed
              adequate and effective information security policies, procedures, and
              practices, in compliance with FISMA. In addition, we evaluated DHS’
              progress in developing, managing, and implementing its information
              security program.

              Our independent evaluation focused on DHS’ information security
              program and practices, based on the requirements outlined in FISMA, and
              using OMB Memorandum M-06-20, FY 2006 Reporting Instructions for
              the Federal Information Security Management Act and Agency Privacy
              Management, issued on July 17, 2006. We conducted our work at the
              program level and at DHS’ major components (CBP, CIS, DHS
              Management, FEMA, FLETC, ICE, OIG, Preparedness, S&T, TSA,
              United States Coast Guard (USCG), and USSS).

              In addition to our independent evaluation, we conducted reviews of DHS’
              information systems and security program related areas throughout
              FY 2006. This report includes results of a limited number of systems
              evaluated during our past and on-going financial statement review, laptop
              security, database security, RFID, TWIC program at TSA, and US-VISIT
              security audits.

              As part of our evaluation of DHS’ compliance with FISMA, we assessed
              DHS and its components’ compliance with the security requirements
              mandated by FISMA and other federal information systems security
              policies, procedures, standards, and guidelines including NIST SP 800-37,
              and FIPS 199. Specifically, we (1) used last year’s FISMA independent
              evaluation as a baseline for this year’s review and assessed the progress
              that DHS has made in resolving weaknesses previously identified; (2)
              focused on reviewing DHS’ POA&M process to ensure that all security
              weaknesses are identified, tracked, and addressed; (3) reviewed policies,
              procedures, and practices that DHS has at the program level and at the
              component level; (4) evaluated processes (i.e., system inventory, C&A,
              security training, and incident response) DHS has implemented as part of
              its agencywide information security program; and, (5) developed our
              independent evaluation of DHS’ information security program.

              OIG audit contractors were responsible for reviewing the quality of the
              C&A packages for a sample of 35 systems at 10 components (CBP, CIS,
              DHS Management, FEMA, ICE, Preparedness, S&T, TSA, USCG, and
              USSS) to ensure that all of the required documents were completed prior
              to being accredited.


               Evaluation of DHS’ Information Security Program for FY 2006 


                                        Page 18 

Appendix A
Purpose, Scope, and Methodology


We conducted our evaluation between May and September 2006 under the
authority of the Inspector General Act of 1978, as amended, and according
to the Quality Standards for Inspections issued by the President’s Council
on Integrity and Efficiency. Major OIG contributors to the evaluation are
identified in Appendix K.

The principal OIG points of contact for the evaluation are Frank Deffer,
Assistant Inspector General, Office of Information Technology at
(202) 254-4100 and Edward G. Coleman, Director, Information Security
Audits Division at (202) 254-5444.




 Evaluation of DHS’ Information Security Program for FY 2006 


                          Page 19 

Appendix B
Management Response to Draft Report




 Evaluation of DHS’ Information Security Program for FY 2006 


                          Page 20 

Appendix B
Management Response to Draft Report




 Evaluation of DHS’ Information Security Program for FY 2006 


                          Page 21 

Appendix B
Management Response to Draft Report




 Evaluation of DHS’ Information Security Program for FY 2006 


                          Page 22 

Appendix B
Management Response to Draft Report




 Evaluation of DHS’ Information Security Program for FY 2006 


                          Page 23 

Appendix C
Digital Dashboard Example




    FOR ILLUSTRATION PURPOSES ONLY




 Evaluation of DHS’ Information Security Program for FY 2006 


                          Page 24 

Appendix C
Digital Dashboard Example



      FOR ILLUSTRATION PURPOSES ONLY




 Evaluation of DHS’ Information Security Program for FY 2006 


                          Page 25 

Appendix D
IT Security Scorecard and C&A Remediation Progress Report for July 2006




 Evaluation of DHS’ Information Security Program for FY 2006 


                      Page 26 

                                  Appendix E
                                  System Inventory and IT Security Performance



                                                                Question 1 and 2 – System Inventory and IT Security Performance
1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an
agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this evaluation for each classification below (a., b., and c.).

                   To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
                   1) Continue to use NIST Special Publication 800-26, or,
                   2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53

              Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency; therefore, self-reporting by contractors does not meet
              the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.

2. For each part of this question, identify actual performance over the past fiscal year by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated, identify
the number of systems, which have completed the following: have a current certification and accreditation, a contingency plan tested within the past year, and security controls tested within the past year.


                                                                     Question 1                                                                                        Question 2
                                         a.                         b.                             c.                                a.                             b.                        c.
                                   Agency Systems           Contractor Systems           Total Number of Systems         Number of systems certified Number of systems for which    Number of systems for
                                                                                                                              and accredited          security controls have been  which contingency plans
                                                                                                                                                      tested and evaluated in the    have been tested in
                                                                                                                                                                last year         accordance with policy and
                                                                                                                                                                                          guidance
                                    (a)                        (a)
Bureau       FIPS 199 Risk         Total        Number       Total        Number            (a)           Number                                                 Total
Name         Impact Level         Number       Reviewed     Number       Reviewed     Total Number       Reviewed         Total Number     Percent of Total     Number        Percent of Total    Total Number Percent of Total
CBP         High                                   4                         0                                4                 4               100.0%             3                75.0%                3              75.0%
            Moderate                               9                         0                                9                 6                66.7%             5                55.6%                1              11.1%
            Sub-total                             13                         0                               13                 10               76.9%             8               61.5%                 4              30.8%
CIS         Moderate                               2                         2                                4                 3                75.0%             2                50.0%                1              25.0%
            Sub-total                              2                         2                                4                 3                75.0%             2               50.0%                 1              25.0%
FEMA        High                                   4                         0                                4                 2                50.0%             3                75.0%                2              50.0%
            Moderate                               0                         1                                1                 1               100.0%             0                0.0%                 1             100.0%
            Sub-total                              4                         1                                5                 3                60.0%             3               60.0%                 3              60.0%
FLETC       Moderate                               2                         0                                2                 2               100.0%             2               100.0%                0              0.0%
            Sub-total                              2                          0                               2                 2               100.0%             2               100.0%                0              0.0%
ICE         High                                   1                         2                                3                 2                66.7%             2                66.7%                3             100.0%
            Moderate                               1                         1                                2                 2               100.0%             0                0.0%                 1              50.0%
            Sub-total                              2                         3                                5                 4                80.0%             2               40.0%                 4              80.0%




                                                                         Evaluation of DHS’ Information Security Program for FY 2006 


                                                                                                           Page 27 

                               Appendix E
                               System Inventory and IT Security Performance




                                 (a)                 (a)
Bureau         FIPS 199 Risk    Total     Number     Total     Number         (a)        Number                                        Total
Name           Impact Level    Number    Reviewed   Number    Reviewed   Total Number   Reviewed    Total Number   Percent of Total   Number   Percent of Total   Total Number Percent of Total
Infrastructure High                         0                    2                         2             1              50.0%           1           50.0%              1             50.0%
              Moderate                      1                    0                         1             1             100.0%           1          100.0%              1            100.0%
              Sub-total                     1                    2                         3             2              66.7%           2           66.7%              2             66.7%
OIG           High                          2                    0                         2             1              50.0%           1           50.0%              0             0.0%
              Sub-total                     2                    0                         2             1              50.0%           1           50.0%              0             0.0%
Preparedness High                           2                    2                         4             3              75.0%           3           75.0%              3             75.0%
              Moderate                      1                    0                         1             0              0.0%            0           0.0%               0             0.0%
              Sub-total                     3                    2                         5             3              60.0%           3           60.0%              3             60.0%
S&T           High                          2                    1                         3             3             100.0%           2           66.7%              3            100.0%
              Moderate                      1                    0                         1             1             100.0%           1          100.0%              1            100.0%
              Sub-total                     3                    1                         4             4             100.0%           3           75.0%              4            100.0%
TSA           High                          1                    1                         2             1              50.0%           2          100.0%              1             50.0%
              Moderate                      3                    1                         4             4             100.0%           3           75.0%              2             50.0%
              Low                           1                    0                         1             1             100.0%           1          100.0%              1            100.0%
              Sub-total                     5                    2                         7             6              85.7%           6           85.7%              4             57.1%
US-VISIT      Moderate                      1                    0                         1             1             100.0%           1          100.0%              1            100.0%
              Sub-total                     1                    0                         1             1             100.0%           1          100.0%              1            100.0%
USCG          High                          2                    1                         3             2              66.7%           2           66.7%              3            100.0%
              Moderate                      5                    0                         5             5             100.0%           4           80.0%              1             20.0%
              Sub-total                     7                    1                         8             7              87.5%           6           75.0%              4             50.0%
USSS          High                          3                    0                         3             3             100.0%           3          100.0%              1             33.3%
              Sub-total                     3                    0                         3             3             100.0%           3          100.0%              1             33.3%
Agency
Totals        High                          21                   9                         30            22             73.3%           22          73.3%              20            66.7%
              Moderate                      26                   5                         31            23             74.2%           17          54.8%              9             29.0%
              Low                           1                    0                         1             1             100.0%           1          100.0%              1            100.0%

              Total                         48                   14                        62           46             74.2%            40         64.5%               30           48.4%

Comments:
(a)	 We are reporting the number of systems that we reviewed, therefore the total number and number reviewed are the same. See the CIO’s report for the total number of systems
     for each component.
(b) The number of systems certified and accredited is based on an ATO letter, not on the adequacy of the documents required.




                                                             Evaluation of DHS’ Information Security Program for FY 2006 


                                                                                        Page 28 

                             Appendix E
                             System Inventory and IT Security Performance


                            Question 3 – System Inventory and IT Security Performance
In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.
            The agency performs oversight and evaluation to ensure information
            systems used or operated by a contractor of the agency or other
            organization on behalf of the agency meet the requirements of FISMA,
            OMB policy and NIST guidelines, national security policy, and agency
            policy. Self-reporting of NIST Special Publication 800-26 and/or NIST
            800-53 requirements by a contractor or other organization is not sufficient,
            however, self-reporting by another Federal agency may be sufficient.          - Almost Always, for example, approximately
    3.a.                                                                                                     (a)
                                                                                         96-100% of the time
            Response Categories:
                    Rarely, for example, approximately 0-50% of the time
                  - Sometimes, for example, approximately 51-70% of the time
                    Frequently, for example, approximately 71-80% of the time
                    Mostly, for example, approximately 81-95% of the time
                    Almost Always, for example, approximately 96-100% of the time
            The agency has developed an inventory of major information systems
            (including major national security systems) operated by or under the
            control of such agency, including an identification of the interfaces
            between each such system and all other systems or networks, including
            those not operated by or under the control of the agency.
   3.b.1                                                                                      Approximately 96-100% complete
            Response Categories:
                   Approximately 0-50% complete
                   Approximately 51-70% complete
                   Approximately 71-80% complete
                   Approximately 81-95% complete
                   Approximately 96-100% complete


            If the Agency IG does not evaluate the Agency's inventory as 96-100%
   3.b.2                                                                                                   N/A
            complete, please list the systems that are missing from the inventory.



            The OIG generally agrees with the CIO on the number of agency owned
    3.c.                                                                                                    Yes
            systems.

            The OIG generally agrees with the CIO on the number of information
    3.d.    systems used or operated by a contractor of the agency or other                                 Yes
            organization on behalf of the agency.

    3.e.    The agency inventory is maintained and updated at least annually.                               Yes


    3.f.    The agency has completed system e-authentication risk assessments.                              Yes


Comments:
(a)	 DHS requires contractor systems to be evaluated in the same manner as agency owned systems. As of
     September 15, 2006, 96 percent of contractor systems have been reviewed, based on the completion of the
     components’ NIST 800-26 self-assessment. This response is a result of DHS’ reported performance metrics.
     The OIG has not evaluated the quality of the assessments performed.




                               Evaluation of DHS’ Information Security Program for FY 2006 


                                                            Page 29 

                              Appendix F
                              OIG Assessment of the POA&M Process


                                Question 4 – OIG Assessment of the POA&M Process
Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing
an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which the following statements reflect the
status in your agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include
comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

        Rarely, for example, approximately 0-50% of the time
      - Sometimes, for example, approximately 51-70% of the time
        Frequently, for example, approximately 71-80% of the time
        Mostly, for example, approximately 81-95% of the time
        Almost Always, for example, approximately 96-100% of the time

                The POA&M is an agency wide process,
                incorporating all known IT security weaknesses
                                                                      - Almost Always, for example, approximately 96-100% of the
      4.a.      associated with information systems used or operated      (a)
                                                                     time
                by the agency or by a contractor of the agency or
                other organization on behalf of the agency.
                When an IT security weakness is identified, program
                officials (including CIOs, if they own or operate a - Sometimes, for example, approximately 51-70% of the time
      4.b.
                system) develop, implement, and manage POA&Ms (b)
                for their system(s).

                Program officials, including contractors, report to the
                                                                         - Frequently, for example, approximately 71-80% of the time
      4.c.      CIO on a regular basis (at least quarterly) on their    (c)
                remediation progress.

                CIO centrally tracks, maintains, and reviews
      4.d.                                                               - Mostly, for example, approximately 81-95% of the time (d)
                POA&M activities on at least a quarterly basis.

                OIG findings are incorporated into the POA&M
      4.e.                                                            - Mostly, for example, approximately 81-95% of the time (e)
                process.
                POA&M process prioritizes IT security weaknesses
                to help ensure significant IT security weaknesses are - Sometimes, for example, approximately 51-70% of the time
      4.f.
                addressed in a timely manner and receive appropriate (f)
                resources
Comments:
(a)	 DHS requires all known IT security weaknesses be included in Trusted Agent FISMA.
(b) DHS requires components to create POA&Ms for all IT security weaknesses. A       	 s of June 8, 2006, 55 percent of
      the operational systems had a POA&M in Trusted Agent FISMA. We reviewed 27 operational systems that had
      not been accredited and found 18 systems (67 percent) that did not have at least one POA&M (lack of a
      completed C&A). In addition, many of the POA&Ms did not contain all required information, such as
      resources required for remediation.
(c)	 DHS components are required to update all information in their POA&Ms at least monthly. However, as of
      June 8, 2006, 13 percent of open POA&Ms had estimated completion dates that were at least 3 months past due
      (prior to March 8, 2006), including 37 that had estimated completion dates more than 1 year old. In addition,
      not all IT security weaknesses are being reported.
(d) The CIO conducts quarterly reviews of the POA&Ms for status and completion and issues reports to the
      components. However, the CIO relies on the components to correct and update the POA&Ms based on the
      findings in the reports.
(e) 	 The CIO requires all OIG findings be included in each component’s POA&M. We noted that most of the
      FY 2006 OIG findings were incorporated into a POA&M.
(f) 	 DHS established new POA&M weakness priority levels in August 2006 for program officials to use to prioritize
      IT security weaknesses. The CISO has not begun to use the priority levels to ensure the timely resolution of
      critical weaknesses.


                                Evaluation of DHS’ Information Security Program for FY 2006 


                                                             Page 30 

                          Appendix G
                          OIG Assessment of the C&A Process


                             Question 5 – OIG Assessment of the C&A Process

 OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative
 assessment of the agency’s certification and accreditation process, including adherence to existing policy,
 guidance, and standards. Agencies shall follow NIST Special Publication 800-37, Guide for the Security
 Certification and Accreditation of Federal Information Systems (May 2004) for certification and accreditation
 work initiated after May 2004. This includes use of the FIPS 199 (February 2004), Standards for Security
 Categorization of Federal Information and Information Systems, to determine an impact level, as well as associated
 NIST documents used as guidance for completing risk assessments and security plans.



              Assess the overall quality of the Department's
              certification and accreditation process.

              Response Categories:
                                                                                          (a)
                   - Excellent                                             Satisfactory
                   - Good
                   - Satisfactory
                   - Poor
                   - Failing


Comments:
(a)	 DHS has implemented a good C&A process. DHS uses a department-wide tool that incorporates NIST security
     controls to certify and accredit all systems. The CIO requires all components to use this tool. Components are
     required to apply NIST 800-53 security controls for all system certifications begun after June 1, 2006.
     However, for many systems, the artifacts that are required to C&A a system were either missing or incomplete.
     Our review of 35 C&A packages at 10 components found 27 instances in which accreditation packages were
     incomplete. Specifically, systems were accredited, although some security documents were missing key
     information that is required to meet all applicable DHS, OMB, and NIST guidelines.




                            Evaluation of DHS’ Information Security Program for FY 2006 


                                                      Page 31 

                          Appendix H
                          Agencywide Security Configuration Requirements


                     Question 6 – Agencywide Security Configuration Requirements

                            Is there an agency wide security configuration
            6.a.            policy?                                                             Yes
                            Yes or No.
    Comments: DHS has included in its agency-wide policy the requirement that all components ensure that the
    installation of hardware and software products meet the requirements specified in applicable DHS secure
    baseline configuration guides. However, DHS has not developed configuration guides for all hardware and
    software systems being used by its components.
                              Configuration guides are available for the products listed below. Identify which
                              software is addressed in the agency wide security configuration policy. Indicate
             6.b.             whether or not any agency systems run the software. In addition, approximate the
                              extent of implementation of the security configuration policy on the systems running
                              the software.

                                                                              Approximate the extent of
                                                                              implementation of the security
                                                                              configuration policy on the systems
                                                                              running the software.

                                                                              Response choices include:
                                                                              - Rarely, or, on approximately 0-50% of
                                                                              the systems running this software
                                                                              - Sometimes, or on approximately
                                                                              51-70% of the systems running this
                                                                              software
                                                                              - Frequently, or on approximately
          Product                                                             71-80% of the systems running this
                                                                              software
                                  Addressed in      Do any agency systems run - Mostly, or on approximately 81-95%
                               agencywide policy?         this software?      of the systems running this software
                                                                              - Almost Always, or on approximately
                                                                              96-100% of the systems running this
                                    Yes, No,                                  software
                                    or N/A.                 Yes or No.
Windows XP Professional               Yes                       Yes
Windows NT                            No                        Yes
Windows 2000 Professional             Yes                       Yes
Windows 2000 Server                   Yes                       Yes
Windows 2003 Server                   Yes                       Yes
                                                                                                (a)
Solaris                               Yes                       Yes
HP-UX                                 Yes                       Yes
Linux                                 Yes                       Yes
Cisco Router IOS                      Yes                       Yes
Oracle                                Yes                       Yes
Other: SQL Server                     Yes                       Yes
Comments:
(a)	 Many of the components use standard configurations for their systems, but have not fully implemented DHS'
     baseline configuration guides. In addition, the CIO has not verified or determined whether components are in
     compliance with DHS baseline configurations (or other system configuration guides).




                            Evaluation of DHS’ Information Security Program for FY 2006

                                                      Page 32
                           Appendix I
                           Incident Detection and Handling Procedures



                     Question 7 – Incident Detection and Handling Procedures

Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or
necessary, include comments in the area provided below.

          The agency follows documented policies and procedures for
                                                                                                      (a)
   7.a.   identifying and reporting incidents internally.                                       Yes
          Yes or No.

          The agency follows documented policies and procedures for external
                                                                                                      (b)
   7.b.   reporting to law enforcement authorities.                                             No
          Yes or No.

          The agency follows defined procedures for reporting to the United
   7.c.   States Computer Emergency Readiness Team (US-CERT).                                     Yes
          Yes or No.

Comments:
(a)	 While DHS requires components to submit weekly incident reports, during a 12-week period in FY 2006, five
     major components (FEMA, FLETC, OIG, TSA, USSS) did not submit reports every week. In addition, the
     DHS CSIRC does not follow-up with the components to ensure that all incidents are being reported.
(b) We again determined that DHS does not have detailed documented procedures for reporting incidents to law
    enforcement authorities.




                            Evaluation of DHS’ Information Security Program for FY 2006 


                                                       Page 33 

                            Appendix J
                            Security Training Procedures




                               Question 8 – Security Training Procedures
            Has the agency ensured security training and awareness of all 

            employees, including contractors and those employees with

            significant IT security responsibilities?


            Response Choices include:
            - Rarely, or, approximately 0-50% of employees have sufficient

            training

                                                                             - Frequently, or, approximately 71
             - Sometimes, or approximately 51-70% of employees have
                                                                             80% of employees have sufficient
            sufficient training
                                                                             training

             - Frequently, or approximately 71-80% of employees have
            sufficient training 

             - Mostly, or approximately 81-95% of employees have sufficient

            training

             - Almost Always, or approximately 96-100% of employees have

            sufficient training 



Comments: The Training Office has begun a validation process to ensure that the components provide IT security
awareness training to its employees. As of August 4, 2006, the Training Office has not begun validating training for
employees with significant IT security responsibilities. In addition, the Training Office has not established the
appropriate security training that is needed for all individuals with significant IT security responsibilities (including
network, database and system administrators).



                               Question 9 – Security Training Procedures

           Does the agency explain policies regarding peer-to-peer file
           sharing in IT security awareness training, ethics training, or any
                                                                                                  Yes
           other agency wide training?
           Yes or No.


Comments: Two components (FLETC, USCG) did not explain DHS’ policy regarding peer-to-peer file sharing risks
during its IT security awareness training.




                             Evaluation of DHS’ Information Security Program for FY 2006 


                                                        Page 34 

Appendix K
Major Contributors to this Report




Information Security Audit Division

Edward G. Coleman, Director
Jeff Arman, Audit Manager
Chiu-Tong Tsang, Senior IT Auditor
Tarsha Ross, Senior IT Auditor
Charles Twitty, IT Auditor
Swati Mahajan, IT Specialist
Michael Horton, Referencer

Advanced Technology Division

Eric Baechle, Senior Security Engineer
Michael Goodman, Security Engineer




 Evaluation of DHS’ Information Security Program for FY 2006

                           Page 35
Appendix L
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Assistant Secretary, Legislative and Intergovernmental Affairs
Assistant Secretary, Policy
Assistant Secretary, Public Affairs
Chief Information Officer
Chief Financial Officer
Chief Privacy Officer
Chief Human Capital Officer
Chief Information Security Officer
Director, Departmental GAO/OIG Liaison Office
Director, Compliance and Oversight Program, Office of CIO
Chief Information Officer Audit Liaison
Component ISSMs
Component CIOs

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




 Evaluation of DHS’ Information Security Program for FY 2006

                            Page 36
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse, or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
